Case No.

19-545

THE SUPREME COURT
OF THE UNITED
STATES
Jean Coulter, Petitioner
v.
Gerri Volchko Paulisick
and
Joseph R. Paulisick, Respondents

On Petition for Certiorari
to the United States Court of Appeals
for the Third Circuit

Petition for Rehearing
Jean Coulter, Petitioner
620 Butler Crossing #3
PMB 172
Butler, Pennsylvania 16001
412-616-9505
jeanecoulter@yahoo.com

RECEIVED
JAN 2 9 2020

Basis for the Request for Rehearing
Pursuant to Rules of the Supreme Court of the
United States > Part VIII. Disposition of Cases, Rule
44. Rehearing, Section 2 :
"its grounds shall be limited to intervening
circumstances of a substantial or controlling
effect or to other substantial grounds not
previously presented."
Petitioner Coulter has previously raised the
Issue that the matter under consideration at this
time, was decided on the basis of a judge protecting
another member of the Justice Us System - rather
than an example of situation where one Party
disagrees with a legitimate decision by a Judge
seeking to bring about Justice for the Parties.
However, This Honorable Court has never been
presented with the stark reality of the true
breadth of this form of corruption of the Justice
System. And, it is believed that members of the
judiciary do not truly comprehend the extent
of the repercussions of the fact that
not “merely” judges are in a position where
they “enjoy” the impunity to act without fear of
consequences for even clearly criminal actions,
simply because of their "connection" to the Just Us
System.
Discussion
In the dissenting opinion for In re Griffiths. 413
US 717 - Supreme Court 1973. Mr. Chief Justice
Berger observed:
"The role of a lawyer as an officer of the court
predates the Constitution; ... always within—
never outside—the law... That this is often
unenforceable, that departures from it remain
1.

undetected, and that judges and bar
associations have been singularly tolerant of
misdeeds of their brethren,
... The crucial factor in all these cases is
that the advocates performed their dual
role—officer of the court and advocate
for a client— strictly within and never in
derogation of high ethical standards.
There is thus a reasonable, rational basis for a
State to conclude that persons owing first
loyalty to this country will grasp these
traditions and apply our concepts more than
those who seek the benefits of American
citizenship while declining to accept the
burdens of citizenship in this country."
(emphasis added)
This underlying principle, perhaps, explains the
origins of the current concept, that there are more
than just rare occasions when the "misdeeds" of
certain members of the Justice System must be over­
looked - on the theory that misdeeds by judges,
lawyers (and even Law Enforcement) must be
over-looked, regardless of the reasons for that
“member’s” improper acts.
When this concept is extended to the
judge’s or lawyer’s (or officer’s) personal lives
as well, the dangers of any such System
become patently obvious.
I doubt that Mr. Chief Justice Berger would have
ever imagined the current Issues presented by the
systematic corruption of the Justice System - which
are the result of the extension of “tolerance” beyond
“merely” “the misdeeds of their brethren” (and even
encompass occasions when their brethren are acting
2.

outside of their role in the search for genuine
“justice”) - particularly as it has become so accepted
at all levels of the System, that those protected by its
influence, extend far beyond the judiciary, and even
beyond "official" members of this branch of our
government.
The Extent of the “Web of Lawful Injustice”1
Jurists
Indeed, The System does not "only" protect the
Judiciary. In addition to the impunity being
extended to each of the Nine (9) U. S. Supreme
Court Justices, as well as each and every one of the
nation's One Hundred Seventy-Nine (179)
Federal Appellate Court Judges and Six
Hundred Seventy-Seven (677) District Court
Judges the traditional concept of the Just Us
System also extends to all Three Hundred Fifty
(350) U. S. Bankruptcy Court Judges and the
Five Hundred Seventy-Nine (579) Magistrate
Judges2 as well. Additionally, each State Court
Judge is afforded the same “courtesy” - with that
meaning that approximately another Three
Thousand8 (3,000) State Court Judges (at various
levels) are also part of the “Just Us System”.
Attorneys
Further, the impunity has been extended to
attorneys as well - and this adds One Million
Three Hundred Thirty Eight Thousand Six
1 I remember seeing a book with this title on my Father’s
bookshelf (he too was a lawyer).
2 https://ballotpedia.org/United_States_federal_courts
3

https://iaals.du.edu/8ite8/default/file8/documents/publications/ju
dge_faq.pdf

3.

Hundred Seventy-Eight4 (1,338,678) Lawyers in
the United States who have come to expect, and
receive, the benefits of the “Just Us System”.
Law Enforcement
And even members of Law Enforcement have
found that they can avail themselves of the benefits
of the “Just Us System” as well. The estimates of the
number of members of Law Enforcement, who are
also beneficiaries of the extension of the “singularQ
toleran[ce] of misdeeds of their brethren”, adds and
additional Six Hundred Eighty-Six Thousand Six
Hundred Sixty-Five (686,665)6 Law
Enforcement Officers.
Then there are the
“Friends and Family” Members
However, it would be naive to expect that
individual members of the “Just Us System” do not
extend their protection to close associates (in the
Police Department, etc.) and family members. In the
Instant Matter, Respondents’ have been asked to
accept responsibility for their decision to inform
Coulter’s Brother of damages to the house - as well
as the subsequent thefts by Coulter’s brother, when
Respondents informed Coulter’s Sister-in-law that
the alarm system would be “dead” because the power
line was brought to the ground (when Respondent’s
tree (for the third time) caused significant damage to
Respondent’s house). This occurred, quite simply,
because both Coulter’s brother, and Respondent
Gerri Paulisick are lawyers. And Coulter’s Brother
4
www.abajournal.com/news/articleAawyer_population_15_higher
_than_10_years_ago_new_aba_data_show8
5
https://www.statista.com/8tatistic8/191694/number-oflaw-enforcement-officers-in-the-us/
4.

i

reciprocated, refusing to “join” in Coulter’s attempt
to recover for the damages caused by Paulisicks (as
one of them is one of Coulter’s Brother’s “brethren”.)
For the “average” member of the “Just Us
System”, perhaps only their spouse and child(ren)
constitute the extent of their Web of Friends and
Family - for a total of perhaps six (6) “related”people
for each “official” member of the Just Us System".
But for some, sweeping “unrelated” others into
this “plan”, apparently has become almost second
nature. Indeed, Respondent’s Brother has extended
the reach of his “Web” to also include each of his
Wife’s three (3) Sisters as well as the sister’s
Husbands and Children - as is utilized when his
Wife wanted to “gift” her siblings with a portion of
the proceeds from Coulter’s deceased Mother’s
personal assets. The Brother’s Wife is very generous
with her Sisters (conscious that they did not marry
an “up and coming young lawyer” the way she did.
Unfortunately, for Coulter and her Sister, the largess
which Coulter’s Sister-In-Law distributes to her
Sisters (and their Families), is funded, in equal
parts, from Coulter’s (and her Sister’s) pockets as
well as that of the Brother’s Family. So, for Coulter’s
Brother, the web encompasses nearly eighteen (18)
“related” individuals.
So, perhaps it’s more “accurate” - to
consider that for each “official” member of the
“Just Us System” (Judges, Lawyers and Police)
- there are actually six (6) more who enjoy the
benefits of impunity within the courts’ System.
Therefore, to calculate the complete scope of
the problem created by the decision to display
“forbearance” to the misdeeds of the current group of

5.

“brethren”, we must multiply the total of “official”
members, by six (6), or :
Federal Judges’ Webs
((9 + 179 + 677 + 350 + 579) x 6) =
1,794x6= 10,764
State Judges’ Webs
(3000 x 6) = 18,000
Lawyers’ Webs
(1,338,678 x 6) = 8,032,068
Law Enforcement’s Web
(686,665 x 6) = 4,119,990
Coulter asks that you “take notice” that the
“Web of Lawful Injustice” currently spreads its
cape of influence around more than 12,000,000
(twelve million) individuals (assuming that the
Web surrounds just six (6) Friends and Family, for
each “official member of the “Web”.
It is a sobering thought to realize that the
estimated current population of the entire Unites
States was Three Hundred Twenty-Seven Million
Two Hundred Thousand (327,200,000) people.
Therefore, the “Web” of the “Just Us System”, so this
actually means that nearly four percent (4%) of
Americans feel confident that they can behave
any way that they chose - confident that the
“Just Us System” will protect them from any
attack resulting from their wrong-doings!
Can there be any wonder then why the Justice
System in this country is held in such low regard by
the extreme majority of Americans?
Respectfully Submitted,
/s/ Jean Coulter______
Jean Coulter, Petitioner
6.

I hereby certify that this petition for rehearing is
presented in good faith and not for delay.

Jea*l Coulter, Petitioner
6 Butler Crossing #3, PMB 172
Butler, Pennsylvania 16001
412-616-9505
jeanecoulter@yahoo.com

7.

